                             -
                             CLOSEOUT FOR M91050024

    This case was brought to the attention of OIG by Drs. (                         a Program
Director in the Division of                                  -d           (a Program Director
in the Division of I                                           , and involved an allegation of
failure to iden* duplicate proposal submissions. The Program Directors informed OIG that
each Division had received a proposal authored by the co-PIS,                          -- -
-1                        Both ~ ~ s - afaculty
                                         re     members of the Department of*-•
                                                       The two proposals (     I  I  I  I   )
                                                                                            and
                 were received at NSF within two days of each other and, on comparison,
m i d e n t i c a l . The Current and Pending Support for Research and Education in
Science and Engineering Form (Form 1239) submitted with each proposal failed to identify the
other proposal. Both proposals were declined based on the evaluations of their scientific merit.

     OIG contacted the President of the institution and the co-PISwith a request for information
regarding this allegation. The institution President responded that the absence of the cross
reference to each proposal on the respective Form 1239s was an error caused by haste and
oversight by the PIS and the institution's Office of University Research. After submitting the
proposal to one NSF Division the PIS realized that the project was also appropriate for
submission to a second Division. Because of time constraints the PIS simply copied the proposal
and forwarded it to the second Division. They failed to modify the Form 1239 submitted with
each proposal. At the time these proposals were reviewed by the Office of University Research,
that office was also reviewing an unusually large volume of proposals to other agencies. That
office's procedures for checking the information on Form 1239s were informal and the errors
were not discovered. The institution President notified NSF that as a result of this allegation
these procedures have been formalized. That office now cross checks information on the Form
1239 accompanying a proposal being processed against computer print outs containing submitted
proposal and funded grant activity by PI, by College, and university wide, to ensure the
accuracy of Form 1239.

     OIG determined that the error on Form 1239 submitted with each proposal has been
satisfactorily explained. Further, the institution took appropriate action to ensure that similar
errors will not occur in the future. OIG closed this case without a finding of misconduct.




Staff Scientist, Oversight



                                          Page 1 of 2
                            CLOSEOUT FOR M91050024




Donald E. Buzzelli
Deputy Assistant Inspector General for Oversight      Assistant Inspector General for Oversight




Philip L. Sunshine
Deputy Inspector General

cc:    Assistant Inspector General for Oversight
       Inspector General




                                        Page 2 of 2
